<html>
<title> - MARKUP ON: H.R. 1670, THE NATIONAL POW/MIA REMEMBRANCE ACT OF 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                  MARKUP ON: H.R. 1670, THE NATIONAL 
                    POW/MIA REMEMBRANCE ACT OF 2015

=======================================================================

                                 MARKUP

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                Held in Washington, DC, December 2, 2015

                               __________

      Printed for the use of the Committee on House Administration
      
      
      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


                       Available on the Internet
                             www.fdsys.gov
                             
                          ______________
                          
                          
                          
                     U.S. GOVERNMENT PUBLISHING OFFICE
  97-880 PDF                 WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                       
                          
                          
                             
                             
                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, 
                          Chairman

                                     ROBERT A. BRADY, Pennsylvania, Ranking
GREG HARPER,Mississippi              Minority Member
RICHARD NUGENT, Florida              ZOE LOFGREN, California 
RODNEY DAVIS, Illinois               JUAN VARGAS, California
BARBARA COMSTOCK, Virginia
 MARK WALKER, North Carolina
                          
                           Professional Staff

                         Sean Moran, Staff Director
                        Jamie Fleet, Minority Staff Director
             


                  MARKUP ON: H.R. 1670, THE NATIONAL 
                    POW/MIA REMEMBRANCE ACT OF 2015

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2015

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:05 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the Committee] presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Comstock, Walker, Brady, Lofgren, and Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; John L. Dickhaus, Legislative Clerk; Erin McCracken, 
Communications Director; Reynold Schweickhardt, Director of 
Technology Policy; Brad D. Walvort, Professional Staff Member; 
Edward J. Puccerella, Professional Staff Member; Jamie Fleet, 
Minority Staff Director; Matt Pinkus, Minority Senior Policy 
Advisor; Khalil Abboud, Minority Deputy Staff Director/Director 
of Legislative Operations; Mike Harrison, Minority Chief 
Counsel; and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's Committee markup. We do have a 
quorum, so we can proceed. I would note that the meeting record 
will remain open for 5 legislative days so that members might 
submit any materials that they wish to be included therein.
    [The information follows:]
    
    
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   
    
    The Chairman. The measure before the Committee today is to 
direct the Architect of the Capitol to obtain a chair featuring 
the logo of the National League of POW/MIA Families and to 
prominently place it on display in the U.S. Capitol. This 
measure, which was introduced by Representative Steve Lynch of 
Massachusetts, we think would be an extremely powerful symbol 
in our Nation's Capital honoring American prisoners of war and 
Americans missing in action.
    As Members of Congress, obviously, we each represent 
districts where so many brave men and women went off to stand 
on the battle lines in defense of our Nation's freedom, our 
liberty, our way of life. The importance of remembering and 
honoring their great sacrifice can never ever be overstated. 
Our Nation has a responsibility to them and to their families 
who have shared in their sacrifice and we must never forget.
    This chair will serve as the permanent reminder of the 
enormous sacrifice made by those who served our country and 
were taken as POWs or listed as MIA. They deserve to be 
honored, they need to be honored in the U.S. Capitol, which is 
a symbol itself of our American beliefs and the liberties and 
freedoms they sacrificed to defend.
    I would just say for me personally, when I would look at a 
chair like that I would think about a fellow who lives in my 
district. His name is Donald, but we call him Digger, Digger 
O'Dell. He is now in his eighties, but he served 5\1/2\ years 
in the Hanoi Hilton, the infamous Hanoi Hilton. Of course, 
there were 123 of those guys. Another one of them is our 
colleague, Sam Johnson.
    Thankfully, Digger made it home, as Sam did, after all 
those years in a North Vietnam camp, and today he serves as a 
member of our local air base community council. He chairs a 
fundraising event for Special Olympics. He is just a remarkable 
fellow, but he is just one of many who selflessly serving our 
Nation faced enormous adversity.
    So I think it is just very important that we, especially 
here in our Nation's Capital, remember their stories and their 
sacrifice for our great country.
    And with that, I would now recognize my colleague, the 
Committee's ranking member, Mr. Brady, for the purpose of an 
opening statement.
    Mr. Brady. Thank you, Madam Chairman. Thank you for 
considering this measure today.
    Advancing this legislation brings us one step closer to 
giving American POWs and MIAs the honor that they do deserve. 
In the Philadelphia area, chairs have been placed at many of 
our sports venues and local city halls. And just a few weeks 
ago, the Philadelphia Eagles recognized this effort during 
halftime at one of our home games. By placing a chair like this 
in the Nation's Capital, we will send a message to those 
servicemembers and their families that we will never forget 
their sacrifice.
    I would like to thank many of my constituents who brought 
this issue to our attention, and I urge my colleagues to 
support the legislation.
    The Chairman. I thank the gentleman.
    Would any member like to offer an amendment to this bill?
    Ms. Lofgren. Madam Chair.
    The Chairman. Yes.
    Ms. Lofgren. I would like to move to strike the last word. 
I am not going to offer an amendment, although I was thinking 
about whether we might somehow involve the one prisoner of war 
that we have in our House, Sam Johnson. I don't know, putting 
his name on it might involve disrespect for others, so I didn't 
want to make that amendment. But I would like us all to think 
how we might involve honoring Sam as part of this process.
    The Chairman. Absolutely, yes, absolutely. Good suggestion. 
I am sure that we will incorporate Sam in any way and every way 
that we can in an appropriate way for recognizing his service 
as well.
    Any other member like to offer an amendment?
    Then I move that the Committee favorably report the bill. 
The question is on the motion to favorably report to the House 
the bill.
    All members in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the chair, the ayes have it, the ayes 
have it.
    Without objection, the motion to reconsider is laid upon 
the table. I would also ask unanimous consent that the staff be 
authorized to make any technical and conforming changes to the 
measure the Committee just considered and to make other 
modifications with the concurrence of the ranking minority 
member of the Committee and notification to all members of the 
Committee.
    Without objection, so ordered.
    That will conclude today's markup.
    [Whereupon, at 11:10 a.m., the Committee was adjourned.]
</pre></body></html>
